                                                                             Report No. DODIG-2014-087


              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              JUNE 26, 2014




                     Army’s Audit Readiness at Risk
                     Because of Unreliable Data in the
                     Appropriation Status Report




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                                        Fraud, Waste, & Abuse

                                        HOTLINE
                                        Department of Defense
                                        d o d i g. m i l / h o t l i n e




For more information about whistleblower protection, please see the inside back cover.
                                Results in Brief
                                Army’s Audit Readiness at Risk Because of Unreliable
                                Data in the Appropriation Status Report



June 26, 2014                                      Findings (cont’d)

Objective                                          readiness for budget execution data by the end of FY 2014 is at
                                                   increased risk.
We performed the audit to assess the reliability
of a nonstatistical sample of data reported in     DFAS-IN personnel used the Defense Departmental Reporting
the Army General Fund’s Accounting Report          System–Budgetary to change GFEBS feeder data associated with
(Monthly) 1002, “Appropriation Status by           $4.2  billion in FY  2013 Army transactions, without appropriate
Fiscal Year Program and Subaccounts Report,”       reviews or approvals.  This occurred because GFEBS feeder data
(Appropriation Status Report).                     were not accurate for reporting and automatic adjustments were
                                                   not properly controlled.  As a result, the December 2012

Findings                                           Appropriation Status Report may be misstated, and the
                                                   Army missed opportunities to improve input and submission
The Army’s Appropriation Status Report             processes and reduce costs associated with preparing budget
was not reliable for data reviewed from the        execution reports.
December 2012 report. Material differences
existed between reported data from the General
Fund Enterprise Business System (GFEBS)            Recommendations
and our recalculation of reviewed Budget Line      We recommend that the Deputy Assistant Secretary of the
Items. This occurred because the documented        Army (Financial Operations) establish a single entry point
processes used by Defense Finance and              to support requests for supporting documentation for all
Accounting Service–Indianapolis (DFAS‑IN)          accounting transactions, and along with the Director, Army
to prepare the Appropriation Status Report         Budget, collaborate with the Director, DFAS‑IN, to develop a
were insufficient. In addition, Army personnel     plan to eliminate these automatic adjustments.  We
did not provide documentation to support           recommend that the Director, DFAS-IN, collaborate with the
28 of 34 financial transactions reviewed.          Defense Departmental Reporting System–Budgetary system
This occurred because the Army did not             proponent to fully document the budget execution reporting audit
have an adequate process to readily provide        trail.  Further, we recommend the Director revise the standard
supporting     documentation.      Additionally,   operating procedure for supporting journal vouchers and require
DFAS‑IN personnel did not fully support            that these automatic adjustments be reviewed and approved in
14  journal vouchers, totaling $83.9 billion.      accordance with the governing regulation.
This    occurred    because     the   standard
operating procedure used by DFAS‑IN did
not adequately describe the supporting             Management Comments and
documentation required for journal vouchers.       Our Response
As a result, users of the Appropriation Status
                                                   Comments from the Army and DFAS-IN addressed all specifics
Report may not be able to depend upon the
                                                   of the recommendations, and no further comments are required.
data, and the Army’s ability to achieve audit
                                                   Please see the Recommendations Table on the next page.
Visit us at www.dodig.mil


                                                                       DODIG-2014-087 (Project No. D2013-D000FI-0060.000) │ i
                  Recommendations Table
                                                                 Recommendations         No Additional
                                    Management                   Requiring Comment     Comments Required
                      Deputy Assistant Secretary of the Army                         A.1, B.1
                      (Financial Operations)

                      Director, Army Budget                                          B.1

                      Director, Defense Finance and Accounting                       A.2.a, A.2.b, B.1, B.2
                      Service–Indianapolis




ii │ DODIG-2014-087
                                   INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                   4800 MARK CENTER DRIVE
                                ALEXANDRIA, VIRGINIA 22350-1500


                                                                                      June 26, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
               	 FINANCIAL OFFICER, DOD
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT:	 Army’s Audit Readiness at Risk Because of Unreliable Data in the
          Appropriation Status Report (Report No. DODIG-2014-087)

We are providing this report for review and use.  The Army’s Appropriation Status Report was
not reliable for the data reviewed from the December 2012 report, and Defense Finance and
Accounting Service–Indianapolis personnel processed $4.2  billion of automatic adjustments
in Defense Departmental Reporting System–Budgetary that changed the lines of accounting
associated with financial transactions. As a result, the Army’s ability to produce an audit-ready
Statement of Budgetary Resources in FY 2014 for General Fund activities is at an increased
risk.   Repeated attempts to obtain needed data contributed to delays in completing the audit.
The report is still relevant because the compilation process for the Appropriation Status
Report did not change significantly since the audit was initiated. 

We considered management comments on a draft of this report when preparing the final report.
Comments from the Deputy Assistant Secretary of the Army (Financial Operations) and the
Director, Defense Finance and Accounting Service–Indianapolis, conformed to the requirements
of DoD Directive 7650.3; therefore, we do not require additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 601-5945.




                                              Lorin T. Venable, CPA
                                              Assistant Inspector General
                                              Financial Management and Reporting




                                                                                             DODIG-2014-087 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Review of Internal Controls_____________________________________________________________________4

                  Finding A. Appropriation Status Report Data Reviewed
                  Were Not Reliable___________________________________________________________________5
                  Report Values Could Not Be Recalculated _____________________________________________________6
                  Army Did Not Support Accounting Transactions____________________________________________ 10
                  Journal Vouchers Were Not Supported_______________________________________________________ 13
                  Ability to Achieve Audit Readiness is at Increased Risk ____________________________________ 15
                  Recommendations, Management Comments, and Our Response__________________________ 16

                  Finding B. Automatic Adjustments Not Documented
                  or Approved____________________________________________________________________________ 18
                  Automatic Adjustments Changed Lines of Accounting______________________________________ 18
                  Time Constraints for Correcting Feeder Data Drove the Use of
                     Automatic Adjustments___________________________________________________________________ 19
                  Automatic Adjustments Were Not Controlled_______________________________________________ 19
                  Automatic Adjustments Increased Risk of Misstatements and Caused Missed
                     Chances to Reduce Costs__________________________________________________________________ 21
                  Conclusion______________________________________________________________________________________ 21
                  Recommendations, Management Comments, and Our Response__________________________ 22

                  Appendixes
                  Appendix A. Scope and Methodology_________________________________________________________ 24
                      Use of Computer-Processed Data _______________________________________________________ 25
                      Use of Technical Assistance_______________________________________________________________ 26
                      Prior Coverage _ ___________________________________________________________________________ 26




iv │ DODIG-2014-087
Appendix B. Appropriation Status Report Format_ _________________________________________ 27
Appendix C. Appropriation Status Report Compilation Process___________________________ 28
Appendix D. Unresolved Differences Between Reported and Recalculated Values_______ 31
Appendix E. Requests for Supporting Documentation _____________________________________ 33
Appendix F. Results of the Journal Voucher Review_________________________________________ 35

Management Comments
Department of the Army_ _____________________________________________________________________ 36
Defense Finance and Accounting Service____________________________________________________ 38

Acronyms and Abbreviations______________________________________________ 41




                                                                                                   DODIG-2014-087 │ v
                                                                                          Introduction




Introduction
Objective
The objective was to assess the reliability of the data reported in the Army
General Fund’s Accounting Report (Monthly) 1002, “Appropriation Status by
Fiscal Year Program and Subaccounts Report,” (Appropriation Status Report).
Because of the increasing significance of the General Fund Enterprise Business
System (GFEBS) to Army General Fund accounting, we focused our review on the
processes used to compile the Army’s Appropriation Status Report using GFEBS
data and the reliability of that data. See Appendix A for a discussion of the scope
and methodology and for prior audit coverage related to the objective.


Background
The U.S. Congress provides budget resources through appropriation legislation
to finance the programs, missions, and functions of DoD and its components.
Office of the Under Secretary of Defense (Comptroller) (OUSD[C]) personnel are
responsible for these resources and for the development and approval of DoD policy
on reporting the status and uses of these resources. Their responsibilities include
the policies and procedures for establishing the internal controls and audit trails
governing information used to produce the budget execution reports and the preparation,
approval, and review of journal vouchers.

According to DoD Regulation 7000.14-R, “DoD Financial Management Regulation,”
(DoD FMR) volume 6A, chapter 2, “Financial Roles and Responsibilities,” the
Army is responsible for ensuring the accuracy, completeness, timeliness, and
documentary support for all data generated and input into finance and accounting
systems for use in its budget execution reports.        The Army is also responsible
for reviewing all budget execution reports provided by the Defense Finance and
Accounting Service–Indianapolis (DFAS-IN) to assess the accuracy of the information
being reported.

In addition, DoD FMR, volume 6A, chapter 2, requires DFAS-IN personnel to
establish procedures to ensure that data provided by the Army, including data
input into finance and accounting systems by the Army, are recorded accurately;
journal vouchers are supported by documentary evidence; and audit trails are
maintained.  Further, DFAS‑IN must ensure that preparation of budget execution
reports is consistent, timely, and auditable and controls are in place to provide
for the accuracy of the reports.



                                                                                      DODIG-2014-087 │ 1
Introduction



                 The     Army       uses      its    budget       execution        reports       to    monitor        its    compliance
                 with laws and regulations and review, analyze, and report the status of its
                 funds to program managers and Army leadership.  Army budget execution
                 reports are also used by Congressional committees, the Office of Management and
                 Budget (OMB), the Government Accountability Office (GAO), and OUSD(C) to assess
                 program‑level financial status and performance.


                 Importance of the Appropriation Status Report
                 The Appropriation Status Report is the principal program-level report used to
                 manage and report on Army budget execution and presents budget execution
                 data related to the authority to obligate funds by fiscal year for programs.  The
                 Appropriation Status Report presents data at a level of detail not available in other
                 budget execution reports, such as the Standard Form (SF) 133, “Report on Budget
                 Execution and Budgetary Resources,” and the Statement of Budgetary Resources
                 (SBR).  For each U.S. Treasury Appropriation Fund Symbol,1 the Appropriation
                 Status Report lists appropriation status by fiscal year program and subaccounts
                 (budget activity, subbudget activity, and Budget Line Item [BLI]).                                    The BLI is the
                 lowest classification level reported on the Appropriation Status Report, which
                 includes       funding       levels,     commitments,            obligations,        and      disbursements.            See
                 Appendix B for more information on the format of the Appropriation Status Report
                 and Appendix C for a flowchart that describes the main steps in the creation of
                 the Appropriation Status Report and other budget execution reports.


                 Other Budget Execution Reports
                 The SF 133 reports the same budget execution data found on the Appropriation
                 Status Report, but at a summary level.                        Reporting entities submit SF 133 data at
                 the end of November, July, August, and each fiscal year quarter. Budget execution
                 reports allow users to monitor the overall status of program funds, including
                 determining whether or not the budgetary resources provided to programs have been
                 obligated.  Obligating or expending more funds than the amounts available for
                 obligation may lead to an Antideficiency Act violation.                                 The information within
                 the various Army appropriation‑level SF 133s should generally agree with the
                 Army’s SBR.2           The SBR provides information on authorized budgeted spending


                 	1	
                     A U.S. Treasury Appropriation Fund Symbol refers to the individual U.S. Treasury accounts established for each
                     appropriation based on the availability of resources in the account. It is a combination of Federal account symbol and
                     availability code, such as annual, multi-year, or no-year funds. For example, U.S. Treasury Appropriation Fund Symbol
                     021 2013 2013 2020 represents the Army’s FY 2013, Operation and Maintenance appropriation.
                 	2	
                     Minor differences between appropriation‑level SF 133s and the SBR are explained in OMB Circular No. A-123, “Preparation,
                     Submission, and Execution of the Budget,” November 5, 2013.




2 │ DODIG-2014-087
                                                                                              Introduction



authority reported in the Budget of the United States Government (President’s
Budget), including budgetary resources, availability of budgetary resources, and
how obligated resources were used.


Army Audit Readiness
According to OUSD(C) in a memorandum dated August 11, 2009, auditable
financial statements, as required by Public Law No. 101-576, the “Chief Financial
Officer’s Act of 1990,” are needed to facilitate decision making and public reassurance
that DoD personnel are good stewards of Government funds.  Consistent with
Congressional mandates, DoD plans to achieve audit readiness on the SBR for its
General Fund activities by the end of FY 2014 and achieve full audit readiness
for all DoD financial statements by FY 2017.  In response to difficulties in
preparing for an SBR audit, DoD’s March 2013 Financial Improvement and
Audit Readiness (FIAR) Guidance narrowed the scope of initial audits to
current-year budget activity on a Schedule of Budgetary Activity. The auditability
of the Army’s financial statements is dependent on establishing an audit‑ready
systems environment that includes successfully deploying GFEBS and interfacing it
with other business and financial systems.  Within the Army, the Deputy Assistant
Secretary of the Army (Financial Operations) is responsible for audit readiness
and financial reporting.

The Army and other DoD Components use the FIAR methodology to achieve
improved financial information and audit readiness.  Components developed
individual Financial Improvement Plans that, when summarized collectively,
constituted DoD’s FIAR  Plan.  The FIAR  Plan priorities were established in
August  2009 and required DoD Components to first focus on improving processes,
controls, and systems supporting information most often used to manage the
DoD.  The FIAR priorities were budgetary information reporting, primarily
the SBR, and mission-critical asset information.  Within the Army, the Director,
Army Budget, is responsible for budget formulation, execution policy, and funds control.

The   Army’s    budget     execution   Financial   Improvement   Plan   describes audit
readiness milestones for assertions and examinations covering an increasing
number of Army entities and business processes migrating from legacy systems
into GFEBS.      An independent public accounting firm, KPMG LLP, performed
examinations of SBR business processes at Army activities using GFEBS.  KPMG
LLP provided two reports to the Army, both highlighting weaknesses in Army’s
audit readiness. The first report, issued November 22, 2011, noted that the Army




                                                                                           DODIG-2014-087 │ 3
Introduction



                 did not properly identify all key control objectives, risks of misstatement, and key
                 control activities related to its processes. A second report from KPMG LLP, issued
                 April 9, 2013, reported that the Army did not meet the FIAR guidance
                 requirements   for   establishing    sufficient   information   technology   controls    to
                 protect GFEBS data and did not maintain controls over journal voucher processing
                 within GFEBS, Defense Departmental Reporting System–Budgetary (DDRS-B),
                 and DDRS–Audited Financial Statements.            Furthermore, the Army did not meet
                 the FIAR requirement for maintaining documentation to support control activities
                 for GFEBS transactions.


                 Review of Internal Controls
                 DoD Instruction  5010.40, “Managers’ Internal Control Program Procedures,”
                 May 30, 2013, requires DoD organizations to implement a comprehensive
                 system    of   internal   controls    that    provides    reasonable    assurance       that
                 programs are operating as intended and to evaluate the effectiveness of the
                 controls.  We identified internal control weaknesses in the processes used by
                 DFAS-IN to create the Appropriation Status Report. We were unable to recalculate
                 a sampled portion of the Appropriation Status Report because the documented
                 processes used by DFAS‑IN to prepare the report were inadequate and DFAS‑IN
                 did not support journal vouchers properly because the “Budget Execution Journal
                 Voucher Process” standard operating procedure used by DFAS-IN did not adequately
                 describe the supporting documentation required for journal vouchers. In addition,
                 DFAS‑IN used an undocumented adjustment process to change accounting data
                 without appropriate reviews or approvals by higher-level officials.  Further, the
                 Army could not provide documentation supporting the financial transactions
                 input into GFEBS because the Army did not have a process to readily provide
                 supporting documentation and GFEBS could not be used to identify a person
                 who could produce the documents that could support the transactions.

                 We will provide a copy of the final report to the senior officials responsible for
                 internal controls in the Army and DFAS.




4 │ DODIG-2014-087
                                                                                                                                 Finding A




Finding A
Appropriation Status Report Data Reviewed Were
Not Reliable

The Army’s Appropriation Status Report was not reliable for a nonstatistical
sample of data reviewed from the December 2012 report. Specifically:

            •	 Thirty material differences existed between what DFAS-IN officially
               reported from GFEBS in December 2012 and our recalculation of
               180 values in a review of Appropriation Status Report data. The absolute
               value3 of the differences totaled $662  million.  This occurred because
               DFAS‑IN was not able to provide the documentation for portions of
               the audit trail embedded within DDRS‑B that were necessary for an
               independent recalculation of the reported values.

            •	 Army personnel4 did not support most of the sampled GFEBS financial
               transactions.         Of the 34 financial transactions for which we requested
               supporting         documents          from      a    review      of    BLIs,     Army       personnel
               supported only 6  of the associated financial transactions. This occurred
               because the Army did not have an adequate process that was consistent
               with FIAR guidance to readily provide supporting documentation.  In
               addition, GFEBS could not identify a person who could provide the
               supporting documentation for the transactions.

            •	 DFAS-IN         did     not      properly        support        sampled         journal       vouchers
               prepared within DDRS-B and other systems in the preparation of the
               Appropriation Status Report.                    Of the 15  journal vouchers reviewed,
               14     vouchers,        totaling      $83.9      billion,     did     not    contain       supporting
               documentation to explain why the adjustments needed to be made.
               This occurred because the Journal Voucher Process Standard Operating
               Procedure #1066, August 31, 2012, used by DFAS-IN did not adequately
               describe the supporting documentation required for journal vouchers.




	 3	 The absolute value is the magnitude of a real number without regard to whether it is positive or negative.
	4	
     Army personnel were at Pacific U.S. Army Garrison, Picatinny Arsenal, U.S. Army Environmental Command, Redstone
     Arsenal, and Kingstowne GFEBS Operations and Sustainment. There may have been additional locations but we could not
     identify all Commands or other Army organizations using the GFEBS contact information.




                                                                                                                           DODIG-2014-087 │ 5
Finding A



                 Since the same budgetary data are used to compile the Appropriation Status
                 Report and other budget execution reports, to include the SF  133 and SBR,
                 users may not be able to depend upon budgetary reports for decision making or
                 performance evaluation. This puts the Army’s ability to achieve audit readiness for
                 budget execution data by the end of FY 2014 at increased risk.


                 Report Values Could Not Be Recalculated
                 Material differences, with an absolute value of $662 million, existed between
                 what DFAS-IN reported from GFEBS in December  2012 and our recalculation of
                 the values in a sample of Appropriation Status Report data. After review, DFAS‑IN
                 personnel stated that these differences were due to the programming logic
                 embedded within DDRS‑B. Although DFAS-IN personnel used DDRS‑B each month
                 to prepare Appropriation Status Reports, they did not have documentation of the
                 DDRS-B processes to substantiate the audit trail necessary to adequately support
                 an independent recalculation of values reported in the Appropriation Status Report.


                 Differences Existed Between Recalculated and
                 Reported Values
                 Material    differences   existed   between    what      was     officially    reported    for
                 December  2012 in the 6 columns of the Appropriation Status Report for
                 the 30 BLIs we reviewed and the report values that we recalculated.  See
                 Appendix B for more information on the format of the Appropriation Status
                 Report.     Following   the   methodology   prescribed    in   DFAS-IN        procedures   for
                 compiling the Appropriation Status Report, we recalculated the portion of each
                 column that was comprised of GFEBS data and compared it to the GFEBS data that
                 DFAS-IN reported in the Appropriation Status Report.  According to DFAS-IN
                 records, GFEBS data represented approximately $11  billion of the $17.1 billion
                 (64  percent) reported in the Appropriation Status Report for the 30 BLIs.                 The
                 source of the remaining data was the legacy systems and other feeder systems as
                 well as journal vouchers. See the Chart for a summary.




6 │ DODIG-2014-087
                                                                                                                                     Finding A



Chart. Sampled Appropriation Status Report Information Analysis (in billions)

                                                                  $0.3 Journal Vouchers
       $5.8 Other Feeder Systems
                                                                                                          $11 GFEBS




We initially had 55 values that were materially different than what DFAS-IN
reported.        After several discussions with DFAS-IN personnel, we determined that
DFAS-IN personnel did not document some processes they used to prepare the
Appropriation Status Report.                     For example, they could explain how they used
a separate crosswalk5 for each fiscal year appropriation data and an automatic
adjustment process6 for changing some data received, but neither process was clearly
outlined in the flowcharts or standard operating procedures that they provided. See
Finding B for further information on the control deficiencies with this automatic
adjustment process. However, after taking into consideration these undocumented
processes and discussions with DFAS‑IN personnel, material differences still
existed for 30 of the 180 values. For example:

            •	 BLI  037 (Items less than $5 million).                              DFAS‑IN personnel reported
                $3,767,000 for Column C, “Program Distribution of Total Amount
                Available for Obligation in Current Fiscal Year.”                            Our calculation of this
                amount was $1,426,000 for an absolute value difference of $2,341,000.




	 5	
    A report crosswalk lists the proper U.S. Standard General Ledger accounts and applicable attributes for each line and
    column on the report.
	6	
    Within DDRS-B, these automatic adjustments are technically referred to as “Disabling a Trial Balance.” This process,
    hereafter referred to as the “automatic adjustment process” allows users with the Data Administrator role to establish rules
    that change lines of accounting that should not be reported on the Appropriation Status Report to lines of accounting that
    should be reported on the Appropriation Status Report.




                                                                                                                               DODIG-2014-087 │ 7
Finding A



                          •	 BLI   009   (Guided    MRLS     Rocket).      DFAS-IN   personnel   reported
                             $6,045,000 for Column E, “Obligation Transactions in Current Fiscal Year,”
                             while we determined the balance should have been $20,999,000, an
                             absolute value difference of $14,954,000.

                 The absolute value of the material differences in the 30 values from the
                 Appropriation Status Report totaled $662 million. The differences are presented in
                 Appendix D.


                 Challenges in Using the Crosswalk
                 Material differences existed between what DFAS-IN reported from GFEBS in
                 December  2012 and our recalculation of the values because the documented
                 processes used by DFAS‑IN to prepare the Appropriation Status Report were
                 inadequate.    Specifically, the crosswalk and process documentation provided by
                 DFAS-IN personnel did not provide a clear or complete audit trail from GFEBS
                 feeder data through DDRS-B to the Appropriation Status Report. DFAS-IN personnel
                 could not resolve the 30 of the 55  material differences between our recalculated
                 values and those reported in the sample values.


                 Insufficient Audit Trail
                 The audit trail from the Army’s GFEBS budgetary data to the Appropriation Status
                 Report was insufficient.  DFAS‑IN personnel could not reconcile differences with
                                         the reported values, and we had significant challenges
                                             in understanding and replicating the DDRS-B report
                         The audit             compilation process because the “Departmental Reporting-
                       trail from the
                       Army’s GFEBS              Army Standard Operating Procedure #1068, Budget
                     budgetary data to           Execution Process,” August 31, 2012, did not provide
                     the Appropriation           sufficient, actionable details of the creation of the
                     Status Report was
                                                Appropriation Status Report. Although this procedure
                        insufficient.
                                               stated that DDRS‑B was used to produce monthly
                                            budget execution reports, neither this document nor the
                                      flowcharts recorded the numerous changes that could be made
                 to the data during this process or how the changes were made.  Further, DFAS-IN
                 personnel could not provide a portion of the audit trail contained within DDRS-B
                 that they said was necessary to produce budget execution reports.  According to
                 DoD FMR, volume  6A, chapter  2, DFAS must ensure that a complete and documented
                 audit trail is maintained to support the reports it prepares.




8 │ DODIG-2014-087
                                                                                                                                         Finding A



Feeder Data From GFEBS Not in DDRS-B
The flowcharts and crosswalks resulted in specific instances in which GFEBS feeder
data were not reported in the Appropriation Status Report. Nine of the 30 material
differences, valued at $123.3 million, were a result of the DDRS-B processes that
did not recognize GFEBS feeder data containing the Standard Financial Information
Structure code “B5,” “Major Acquisition Code,” during the compilation of the
Appropriation Status Report.  For example, for BLI  014 (CH-47 Helicopter),
DDRS‑B output reported $10  million in each of three columns (B, C, and D)7 in the
Appropriation Status Report. GFEBS feeder data contained the $10  million that was
reported as a debit in General Ledger Account Code 4119 (Other Appropriations
Realized) but also contained a credit for this BLI for $10  million that did not flow
through to the report.  The only difference between the debit and the credit in
GFEBS was that the credit contained data in the B5 indicator code. In compiling
the report, DDRS-B processes should have been unaffected by the presence of the
B5 indicator but the December 2012 Appropriation Status Report did not reflect the
$10 million credit (reduction).  DFAS‑IN personnel could not explain why accounts
that had the B5 indicator code were not included in the computation in order to
match the crosswalk.  To report the correct amounts on the Appropriation Status
Report, DFAS‑IN personnel prepared an adjustment that was equal to the amount
that should have been processed automatically through the crosswalk from GFEBS.


Prior DoD IG Report Highlighted Feeder File Data Problems
The actions taken in response to recommendations in DoD Inspector General
Report No. DODIG-2012-096, “Defense Departmental Reporting System-Budgetary
Was Not Effectively Implemented for the Army General Fund,” May  31, 2012, were
not fully effective.              The Acting Director of DFAS‑IN agreed to collaborate with
the Defense Logistics Agency to produce a DDRS-B end‑to‑end system process
flow to comply with OMB Circular No. A-123, “Management’s Responsibility for
Internal Control,” December 21, 2004. DFAS-IN personnel provided the flowcharts
and process narratives they developed to describe the DDRS-B end-to-end
system process flows.                  However, the flowcharts and process narratives did not
sufficiently document the processing of budget execution data. For example, poorly
defined terms such as “preprocessing” were used to define a process where


	7	
      The three columns were B (Appropriated in Conference Report/Program Distribution of Total Amount Available for
      Obligation From Inception), C (Approved Program/Program Distribution of Total Amount Available For Obligation in Current
      Fiscal Year), and D (Revised Program/Apportioned or Otherwise Available for Obligation to the End of the Current Quarter).




                                                                                                                                   DODIG-2014-087 │ 9
Finding A



                 information is prepared for DDRS-B. In addition, the process narratives referred to
                 errors or exception reports that aid the processing personnel but did not include
                 examples of the reports or explain the reasons for them.

                 To support the reliability of the Appropriation Status Report and other budgetary
                 reports that are dependent on the same feeder data, these processes should be
                 fully and clearly documented.  Documenting the processes would both improve
                 the understanding of this reporting process for DFAS-IN personnel, as well as
                 demonstrate the reliability of the budget execution reports to those who depend
                 on this information for program management and oversight.  DFAS‑IN should
                 collaborate with the system proponent for DDRS‑B to revise its budget execution
                 reporting process flowcharts and narratives after conducting a comprehensive
                 review of the processes from receipt of budget execution feeder file data through
                 the publication of the Appropriation Status Report and other budget execution reports.


                 Army Did Not Support Accounting Transactions
                 Army personnel did not support most of the GFEBS financial transactions reviewed
                 from the December 2012 Appropriation Status Report.             DoD’s March 2013 FIAR
                                             plan guidance requires Army management to establish
                                                an infrastructure to manage auditor requests.  The
                               Army
                           personnel did           infrastructure includes receiving document requests
                         not support most           from auditors, coordinating with field personnel
                      of the GFEBS financial
                                                     to collect and submit the documentation to the
                      transactions reviewed
                        from the December            auditors, and responding to auditor questions about
                       2012 Appropriation           the documentation.  DoD FMR, volume 4, chapter 2,
                           Status Report.          “Accounting for Cash and Fund Balances with Treasury,”
                                               requires that documentation must be available to provide
                 auditors and management with an audit trail for proper oversight.  Further, the
                 Army’s “Army Audit Readiness Strategy FY  2013,” emphasizes the importance of
                 source documentation and the ability to retrieve these documents from information
                 management systems to support audit readiness and auditors’ requests for
                 these documents.


                 Army Provided Limited Supporting Documentation
                 Despite efforts that began in April 2013 to obtain documentation supporting
                 financial    transactions     reflected   in   the   Appropriation   Status   Report   for
                 December 2012, Army personnel provided adequate support for only 6 of the




10 │ DODIG-2014-087
                                                                                              Finding A



34 financial transactions we requested.         Army personnel provided one document
supporting funding ($34  million) and five documents supporting obligations
($9.8  million, absolute value) reported in the Appropriation Status Report.
Unsupported transactions were valued at $237.3 million.  Without supporting
documentation from GFEBS, the Appropriation Status Report may not be reliable. See
Appendix E for the sample of the documents we requested and the outcomes of
our requests to the Army to provide the supporting documentation.


Inaccurate GFEBS Contact Information Created Delays
The initial contact information within GFEBS was incomplete or inaccurate for
21 of the 34 reviewed financial transactions.        Specifically, GFEBS did not contain
enough contact information for us to identify the points of contact or the contact
information in GFEBS was incorrect. For example, one point of contact immediately
responded and stated that he had view‑only access of GFEBS, so he could not
have input any transactions into GFEBS.  He was part of the GFEBS deployment
effort but was not responsible for inputting any information into GFEBS.  Due to
an error within GFEBS, he was incorrectly identified as the person responsible for
input of numerous transactions into GFEBS. This lack of accurate information created
delays in contacting responsible individuals.

Subsequently, we coordinated with personnel from DFAS-IN, Accounting Operations
Directorate, Accounts Maintenance, and Control to obtain alternative contact
information from GFEBS.       The updated contact information was still incomplete
or inaccurate, adding further delays in requesting and receiving supporting
documentation. For example, we contacted an individual identified as the point of
contact for 5 of the reviewed financial transactions and then submitted a second
request for the documentation 5  days later. Nearly 2 weeks later, the point of contact
responded, stating that he was not the person who had input these transactions
but that he had forwarded our request to an audit liaison point of contact in his
organization. However, we received no further responses regarding our requests for
these documents.

After 3 weeks of communicating with individual contacts to request documentation
to support the sampled financial transactions, the Army supported only 6 of the
34 financial transactions.    As a result, we decided to discontinue direct contact
with the individuals that were identified as responsible for input of the sampled
transactions. Instead, we coordinated our efforts through the Director, Army General
Fund Audit Readiness, in the Office of the Deputy Assistant Secretary of the Army




                                                                                       DODIG-2014-087 │ 11
Finding A



                 (Financial Operations), to gather the supporting documents.  The Director agreed
                 to assist using an established process for requesting supporting documentation
                 for samples at Army installations and activities.  However, although we provided
                 detailed lists of documents we required and followed up frequently over several weeks,
                 the requested documents were not provided.


                 Army’s Process for Providing Supporting Documents Was
                 Not Adequate
                 The Army did not have an adequate process for providing documentation
                 supporting transactions recorded in GFEBS.       In FY  2012, when personnel in the
                 Army General Fund Audit Readiness Directorate (Audit Readiness personnel)
                 started testing transactions, they recognized the need to develop an infrastructure
                 for responding to requests for supporting documentation.       The KPMG LLP report,
                 dated April 9, 2013, covering SBR business processes identified a material weakness
                 in requesting and receiving supporting documentation from the Army. The report
                 stated that the Army did not have documentation available to support control activities
                 related to certain transactions processed within GFEBS because the Army had not
                 developed and implemented formal, standard policies on the definition and retention of
                 proper documentation. The KPMG LLP report also stated that Army commands were
                 inexperienced in responding to requests for documentation during the examination.

                 In its 3rd quarter, FY 2013 in-process review for the Army Financial Improvement
                 Plan, Audit Readiness personnel emphasized the importance of providing complete
                 supporting   documentation     upon   auditor   request.    Monthly   internal   control
                 testing of Army commands by Audit Readiness personnel and their contractors
                 indicated that test failures were primarily due to the lack of documentation.
                 Their June 2013 Corrective Action Plan for the Army’s SBR Assessable Unit
                 identified deficiencies resulting from monthly testing in the ability to readily
                 provide supporting documentation from across all business processes. The
                 Corrective Action Plan stated that these control deficiencies could increase the
                 risk that the Army’s financial statements would include a material misstatement.
                 The Army identified an important corrective action that required its personnel to
                 ensure all documentation related to identified business processes be maintained
                 and readily available.    Further, the plan stated that the Assistant Secretary of
                 the Army (Financial Management and Comptroller) would collaborate with all
                 Army commands to develop the ability to retain the appropriate supporting
                 documentation and provide the documentation to auditors upon request. The target
                 date for completion of corrective actions is September 2014.




12 │ DODIG-2014-087
                                                                                                                                   Finding A



Retention of supporting documentation by commands is critical to the success of
achieving audit readiness. Auditors, whether from the Government or independent
public accounting firms, should be able to request support and documentation from
a single organization within the Army. It is not practical to expect an outside audit
organization to interact individually and separately with numerous organizations
below the Army‑headquarter level for audits that are Army‑wide or include more
than one Army element.  Once an audit has been formally announced and properly
introduced to Army senior leadership, audit organizations should have a single
accountable organization to which they may request documentation supporting
financial transactions from all Army Commands and organizations.  The Deputy
Assistant Secretary of the Army (Financial Operations) should establish a single entry
point for auditor support for all Army financial statement audits, examinations, and
performance audits of Army audit readiness activities that include more than one
Command or Army element to facilitate access to supporting documentation.


Journal Vouchers Were Not Supported
DFAS-IN personnel did not properly support journal vouchers prepared within
DDRS-B and other systems in its preparation of the Appropriation Status Report for
December  2012.  In January  2013, DFAS-IN prepared 587 journal vouchers
($136.2  billion) prior to the preparation of the Appropriation Status Report for
December  2012.  Of the 587 journal vouchers, 224  vouchers ($115.1  billion)
cited a GFEBS error as a reason for the adjustment. Fourteen of the 15 reviewed
journal vouchers affecting budgetary execution data did not contain sufficient
supporting documentation to explain why the adjustments were necessary.                                                   See
Appendix F for the results of the journal voucher review.


Journal Voucher Supporting Documentation Was Insufficient
Of the 15 journal vouchers reviewed,8 14 vouchers, totaling $83.9 billion, did not
have sufficient supporting documentation included in the journal voucher package
to describe why the adjustments were necessary.                                 Of the 14 vouchers, 13 were
prepared to correct a GFEBS error.9                         However, the preparers for all 13 journal
vouchers did not include information explaining how they knew that there was a
GFEBS error or how the journal voucher would correct the original accounting
information.          For example, Journal Voucher No.  20131196213 changed budgetary


	8	
      Vouchers changed both proprietary and budgetary general ledger accounts.
	9	
      The remaining journal voucher eliminated the double–reporting of undistributed disbursements for Army funds being
      executed by the Marine Corps.




                                                                                                                            DODIG-2014-087 │ 13
Finding A



                 accounts by $1.8 billion and explained GFEBS was submitting information under
                 BLI  000, which was invalid on the Appropriation Status Report. As a result, this
                 journal voucher moved original feeder data to BLI  131.  The journal voucher
                 supporting documentation showed DDRS-B data before and after the change
                 was made, but did not show that BLI  000 was invalid or how the accountant
                 determined that the information should be moved to BLI 131.

                 DoD FMR, volume 6A, chapter 2, defines the roles and responsibilities in the
                 preparation and issuance of financial reports for DoD Components. Specifically, the
                 DoD FMR requires journal vouchers, which adjust financial accounts, to be adequately
                 documented to support the validity and amount of the journal voucher transaction,
                 determine whether it is proper and accurate, and identify whether the journal
                 voucher entries are supported or unsupported.           Proper supporting documentation
                 includes    the    reason   for   the    adjustment   and   the   dollar    amount     of   the
                 adjustment. The support must include sufficient detail to provide an audit trail to
                 the source transaction(s) that required the adjustments.


                 DFAS-IN Budget Execution Journal Voucher Standard
                 Operating Procedure Needs Revisions
                 DFAS-IN’s    Budget     Execution       Journal   Voucher   Process   Standard       Operating
                 Procedure (standard operating procedure) did not adequately describe the
                 supporting documentation required for journal vouchers.            The standard operating
                 procedure stated that source documents should be included as a part of the
                 supporting documentation for a journal voucher but did not specifically require this
                 be done.    The standard operating procedure also did not require that the source
                 documents support the reason for the adjustment being made. An approver needs
                 to review documentation that supports the reason why an adjustment is needed
                 with the journal voucher, or it must be readily available for review to have assurance
                 that the information in the adjustment is valid. Auditors need an audit trail to trace
                 all financial data, including adjustments, back to their source and to demonstrate
                 the accuracy, completeness, and timeliness of a transaction.               More importantly,
                 however, managers need supportable financial information, on which they can
                 depend, to provide a basis to make informed business decisions that will allow
                 them to be better equipped in their management and control functions.

                 The KPMG LLP report, dated April 9, 2013, identified that the Army and DFAS did
                 not properly implement controls over journal voucher processing within GFEBS
                 and DDRS.         The report stated that the journal voucher processing weakness




14 │ DODIG-2014-087
                                                                                             Finding A



occurred because the Army and DFAS did not have policies and procedures in place
related to journal vouchers and reconciliations, including those related to
document retention requirements and evidence of supervisory review of the
journal vouchers.

For the Army to be audit ready, it must produce appropriate source documentation
for information that supports financial reports.  Unsupported journal vouchers
do not provide evidence of the validity and accuracy of the adjustments and reduce
the reliability of budget execution reports.   This increases the Army’s risk of not
achieving audit readiness for budget execution data by FY 2014. To improve the
supportability of journal vouchers prepared by DFAS-IN personnel, the DFAS‑IN standard
operating procedure should be revised to require the supporting documentation of
journal vouchers correcting GFEBS errors include information showing how it was
determined that the feeder data were in error and how the information in the journal
voucher was determined to be the correct information.


Ability to Achieve Audit Readiness is at Increased Risk
The ability of the Army to achieve audit readiness is at increased risk because of
the control deficiencies we identified in compiling the Appropriation Status Report.
Public Law 112-239, National Defense Authorization Act for FY 2013, requires the
DoD SBR to be validated as audit ready by no later than September 30, 2014. Users
of the Appropriation Status Report and other monthly budget execution reports
depend upon the information in the reports for decision making and performance
evaluations; however, data reviewed from the December 2012 Appropriation
Status Report were not reliable. Because of the uncertainty regarding the reliability
of the reported values in the Appropriation Status Report, users may not be able to
depend upon data in the Appropriation Status Report or the related reports, such as the
SF 133 and SBR.      Unless these data reliability problems are corrected, there is
a significant risk that the Army will not achieve its audit readiness for budget
execution data by the end of FY 2014.




                                                                                      DODIG-2014-087 │ 15
Finding A



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation A.1
                 We recommend that the Deputy Assistant Secretary of the Army (Financial
                 Operations) establish a single entry point for auditor support for all Army financial
                 statement audits, examinations, and performance audits of Army audit readiness
                 activities that include more than one Command or Army element to facilitate
                 access to supporting documentation for financial transactions recorded in
                 accounting systems.


                 Department of the Army Comments
                 The Deputy Assistant Secretary of the Army (Financial Operations) agreed, stating
                 that the Directorate of Accountability and Audit Readiness has been established
                 as the single entry point for auditor support for all financial statement audits,
                 examinations, and performance audits of Army audit readiness activities.


                 Our Response
                 The Deputy Assistant Secretary of the Army (Financial Operations) addressed all
                 specifics of the recommendation, and no additional comments are needed.


                 Recommendation A.2
                 We recommend that the Director of the Defense Finance and Accounting
                 Service–Indianapolis:

                         a.	 Collaborate with the system proponent for the Defense Departmental
                            Reporting System–Budgetary to conduct a thorough review and revise
                            its budget execution reporting process flowcharts and narratives
                            to provide a complete and detailed process flow for improved
                            auditability of the budget execution reports.

                 Defense Finance and Accounting Service Comments
                 The Director, DFAS-IN, agreed, stating that he would work with the system
                 proponent of DDRS-B to conduct a thorough review and revise budget execution
                 reporting process flowcharts and narratives.      The estimated completion date is
                 November 30, 2014.




16 │ DODIG-2014-087
                                                                                          Finding A



Our Response
The Director, DFAS-IN, addressed all specifics of the recommendation, and no
additional comments are needed.

        b.	 Revise the Budget Execution Journal Voucher Process Standard
           Operating Procedure to require the supporting documentation
           of journal vouchers correcting General Fund Enterprise Business
           System errors include information showing how it was determined
           that the feeder data were in error and how the information in the
           journal voucher was determined to be the correct information.

Defense Finance and Accounting Service Comments
The Director, DFAS-IN, agreed, stating that he would revise the Budget Execution
Journal Voucher Process Standard Operating Procedure to require the supporting
documentation of journal vouchers correcting GFEBS errors. The revision will include
information showing how it was determined that the feeder data were in error
and how the information in the journal voucher was determined to be the correct
information.  The estimated completion date is October 31, 2014.


Our Response
The Director, DFAS-IN, addressed all specifics of the recommendation, and no
additional comments are needed.




                                                                                   DODIG-2014-087 │ 17
Finding B




                 Finding B
                 Automatic Adjustments Not Documented or Approved

                 For the December 2012 Appropriation Status Report, DFAS-IN personnel used
                 DDRS-B to make undocumented changes to GFEBS feeder data associated with
                 $4.2  billion in FY  2013 Army General Fund financial transactions, without
                 appropriate reviews or approvals by higher level officials.  This occurred because
                 the GFEBS feeder data provided were not accurate for reporting purposes and
                 automatic adjustment processes used by DFAS-IN were not properly controlled. As a
                 result, the December 2012 Appropriation Status Report may be misstated and
                 the Army missed opportunities to improve the GFEBS data input and submission
                 processes and reduce costs associated with preparing budget execution reports.


                 Automatic Adjustments Changed Lines of Accounting
                 For the December 2012 Appropriation Status Report, DFAS-IN personnel changed
                 169  lines of accounting10 citing FY 2013 Army appropriations, causing adjustments
                 of $4.2  billion in DDRS‑B.  According to Army Budget Office personnel, in
                 FY 2012, DFAS‑IN personnel began using an automatic adjustment process
                 within DDRS-B to change lines of accounting from GFEBS feeder data. During the
                 preparation of the Appropriation Status Report, the GFEBS feeder data contained
                 lines of accounting that DDRS-B could not process for reporting. When this occurred,
                 DFAS-IN personnel provided these lines of accounting to personnel in the Army
                 Budget Office, requesting the correct accounting information to replace the line
                 of accounting in the original feeder file data.                               The Army Budget Office personnel
                 used approved budget formulation tables and GFEBS information to determine
                 how information should be reported.  Using this automatic adjustment process
                 within DDRS-B, the original line of accounting was then moved to the new line of
                 accounting to enable the data to be reported on the Appropriation Status Report.
                 Once created, automatic adjustments were permanently part of the DDRS-B
                 report process for budget execution data.  All of the automatic adjustments we
                 reviewed in our sample of GFEBS feeder data for 30 BLIs changed the original
                 BLIs. For example, automatic adjustments moved:

                                •	 $1.9 billion from BLI 7062AA0005 to 6772AA0005,

                 	10	
                        Line of accounting includes the fiscal year, appropriation, and BLI.




18 │ DODIG-2014-087
                                                                                                                                            Finding B



               •	 $199.3 million from BLI 2707AA6605 to 2706AA6605, and

               •	 $20.6 million from BLI 9416E25500 to 6780E25500.


Time Constraints for Correcting Feeder Data Drove the
Use of Automatic Adjustments
DFAS-IN personnel used the DDRS-B automatic adjustment process because
GFEBS feeder data regularly contained errors.  For example, 169 lines of accounting
associated with financial transactions associated with FY 2013
appropriations had to be changed in order for DFAS-IN
personnel to meet required report dates to issue the
                                                                                                    DFAS-IN
December              2012        Appropriation             Status        Report.
                                                                                                 personnel used
Personnel             who         prepared          the       Appropriation                   the DDRS-B automatic
Status Report stated that before the use of these                                              adjustment process
automatic             adjustments,           they       were         preparing                because GFEBS feeder
                                                                                                  data regularly
600 to 1,000 journal voucher adjustments11 each                                                 contained errors.
month          to     change        incoming         lines      of    accounting
in order to prepare the report.                              DFAS‑IN personnel
said that they used these automatic adjustments as an
available option to replace most of the journal vouchers because of the short
timeframes to prepare monthly budget execution reports with limited resources.

The Deputy Assistant Secretary of the Army (Financial Operations) and the Director,
Army Budget, should collaborate with DFAS-IN to complete an analysis to determine
the cause of GFEBS feeder data adjustments, track and report trend data on the
number and dollar value of these automatic adjustments made and the reasons for
them, and develop a plan of actions and milestones to eliminate the need for these
automatic adjustments within DDRS-B.


Automatic Adjustments Were Not Controlled
The use of DDRS-B automatic adjustments to change GFEBS feeder data was
not properly controlled.                     These automatic adjustments can be created by any
DDRS-B user with the data administrator role using a menu-driven set of choices
but without review or approval from any other person and without any system


	11	
       DFAS-IN personnel stated that two journal vouchers were required for each automatic adjustment, one to remove it from
       a line of accounting and another to place it on the new line of accounting. In addition, a journal voucher only adjusts one
       line of accounting and journal vouchers would have been prepared for previously established automatic adjustments.
       DFAS-IN personnel did not provide a complete listing of all of the automatic adjustments created in FY 2012.




                                                                                                                                     DODIG-2014-087 │ 19
Finding B



                                             control.   In addition, documentation was not prepared
                       Documentation           to record the creation of the automatic adjustment,
                     was not prepared
                   to record the creation       its purpose, or impact outside of DDRS-B.  Six
                      of the automatic          personnel in DFAS-IN Departmental Reporting had
                  adjustment, its purpose,      the data administrator role, which authorized them
                     or impact outside
                                                to create automatic adjustments to move feeder data
                         of DDRS-B.
                                              received from one line of accounting to another. Neither
                                             DFAS-IN personnel nor Army Budget Office personnel
                                       retained documentation to support the changes made, so
                 we could not review the adequacy of the adjustments. In addition, unlike journal
                 vouchers, there was no higher-level review and approval for the creation of these
                 automatic adjustments by either DFAS-IN or the Army. Furthermore, the complete
                 extent of the use of automatic adjustments was not known because DFAS-IN
                 personnel did not track these automatic adjustments prior to the start of FY  2013.

                 The requirement to prepare reports by deadlines does not reduce the need to
                 adequately control the automatic adjustment process.  If original feeder data
                 must be changed before they are reported, the process for automatic adjustments
                 should require the review, approval, and documentation at an appropriate level of
                 oversight. As discussed in more detail in Finding A, journal voucher processes define
                 the preparation, review, and approval requirements for adjustments and have clear
                 requirements and a defined process for making changes to original data submitted
                 for reporting.   According to DoD FMR, volume 6A, chapter 2, any adjustments
                 made in any reporting system or through an offline manual process in report
                 preparation are classified as journal voucher adjustments.  Reporting timeframes
                 notwithstanding, the authorization, approval, and documentation of the automatic
                 adjustments should have been made in compliance with the DoD FMR through
                 the preparation of journal vouchers.  The journal voucher process, if properly
                 executed, shows approvers and other stakeholders why the journal vouchers
                 are needed, the number produced each month, and assigns accountability to the
                 journal voucher approver.     Properly prepared journal vouchers provide important
                 information to approvers of journal vouchers, allowing them to monitor the reasons
                 for creating journal vouchers and the impact of implementation of these adjustments
                 on financial data.  Monitoring on a regular basis could provide information
                 to management to track and report trends on the number and dollar value of
                 these automatic adjustments made and the reasons for them.  It also provides
                 opportunities to design and implement process changes to reduce or eliminate




20 │ DODIG-2014-087
                                                                                            Finding B



the need for journal vouchers over time by correcting data issues in the feeder
files before the data are provided for report compilation.  Therefore, automatic
adjustments made routinely to correct GFEBS feeder data should be subject to
the same requirements and controls as journal vouchers.

Until this automatic adjustment process is eliminated or system controls are
established within DDRS-B, the Director of DFAS-IN should require that any
adjustments to feeder data are approved and documented in accordance with
DoD FMR, volume 6A, chapter 2.


Automatic Adjustments Increased Risk of
Misstatements and Caused Missed Chances to
Reduce Costs
Changing GFEBS budgetary execution data using DDRS-B automatic adjustments
increased the risk that unsupported changes would be made or errors would
occur in the creation of the automatic adjustments, increasing the potential for
misstatement of reported budget execution data to the Appropriation Status
Report, as well as the SF 133 and SBR. Because adjustments occurred automatically
once established within DDRS‑B, Army financial personnel were not aware of the
number of GFEBS feeder data errors corrected. As a result, they missed opportunities
to improve the quality of GFEBS data and reduce unnecessary costs associated
with preparing Army budget execution reports.  In addition, because of the
uncertainty regarding the reliability of the reported values in the Appropriation
Status Report, users may not be able to depend upon data in the related budget
execution reports. Unless these data reliability problems are corrected, there is an
increased risk that the Army will not achieve its audit readiness for budget execution
data by the end of FY 2014.


Conclusion
DFAS‑IN personnel used an undocumented and uncontrolled automatic adjustment
process in DDRS‑B to make changes to GFEBS budgetary execution data for
FY 2013 Army General Fund appropriations rather than the approved and defined
process of preparing journal vouchers.  Further, using the automatic adjustment
process in DDRS-B eliminated the visibility of these data adjustments, and the
information that could have been used to improve the GFEBS data input and
submission processes was not captured.     As a result of these control deficiencies,
budgetary data in the Appropriation Status Report and other budget execution



                                                                                     DODIG-2014-087 │ 21
Finding B



                 reports, such as the SF  133 and SBR, may be misstated, increasing the risk that
                 the Army will not achieve audit readiness by the end of FY 2014.  In addition,
                 information is not retained that could be used by management to improve the
                 GFEBS data input and submission processes, and the Army lost opportunities to
                 reduce the costs associated with preparing reports.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation B.1
                 We recommend that the Deputy Assistant Secretary of the Army (Financial
                 Operations) and the Director, Army Budget, in collaboration with the
                 Director of the Defense Finance and Accounting Service–Indianapolis, complete
                 an analysis to determine the cause of the significant number of adjustments
                 required each month in order for General Fund Enterprise Business System
                 data to be reported in the Appropriation Status Report, track and report
                 trend data on these automatic adjustments, and develop a plan of actions
                 and milestones to eliminate the need for this automatic adjustment process
                 within the Defense Departmental Reporting System–Budgetary.


                 Department of the Army Comments
                 The Deputy Assistant Secretary of the Army (Financial Operations) agreed, stating
                 that he and the Director, Army Budget, would work with DFAS-IN Departmental
                 Reporting and the system proponent of DDRS to address the root causes of the
                 adjustments related to the Appropriation Status Report.  By September 30, 2014,
                 they will hold a workshop to identify root causes and develop a plan of actions and
                 milestones to address GFEBS and DDRS systems changes and identify Army and
                 DoD policies that need changed.  He also stated that they will add additional
                 information to the journal voucher metrics to ensure completion of planned actions
                 and a reduction in journal voucher activity.


                 Our Response
                 The Deputy Assistant Secretary of the Army (Financial Operations) addressed all
                 specifics of the recommendation, and no additional comments are required.




22 │ DODIG-2014-087
                                                                                            Finding B



Defense Finance and Accounting Service Comments
The Director, DFAS-IN, agreed, stating that he would collaborate with the Deputy
Assistant Secretary of the Army (Financial Operations) and the Director, Army
Budget, to complete the analysis, track and report data, and develop a plan of actions
and milestones to eliminate the need for the automatic adjustment process within
DDRS-B. The estimated completion date is February 28, 2015.


Our Response
The Director, DFAS-IN, addressed all the specifics of the recommendation, and no
additional comments are required.


Recommendation B.2
We recommend that the Director of the Defense Finance and Accounting
Service–Indianapolis require that these automatic adjustments be approved
and documented in accordance with DoD Financial Management Regulation,
volume 6A, chapter 2, “Financial Roles and Responsibilities.”


Defense Finance and Accounting Service Comments
The Director, DFAS-IN, disagreed, stating that the recommendation did not address
the root cause of the problem, and a joint effort and corrective action from the Army
are necessary to correct the GFEBS systems issues that result in the invalid lines of
accounting. However, he agreed that regulatory guidance would require each automatic
adjustment be approved and documented, which would result in extraordinary
costs. He stated he understood the spirit of the recommendation and provided an
alternative action.   He agreed to document evidence of supervisory reviews and
separation of duties by printing a listing of all the automatic adjustments monthly
and having it signed by the preparer and the supervisor. The estimated completion
date is October 31, 2014.


Our Response
As an interim measure, the alternative action provided by the Director, DFAS-IN,
meets the intent of this recommendation. The printed monthly list of the automatic
adjustments should also be coordinated with the Office of the Deputy Assistant
Secretary of the Army (Financial Operations). We agree with this joint effort. When
accomplished in coordination with the actions completed in Recommendation B.1, the
invalid lines of accounting should be addressed. No additional comments are required.




                                                                                     DODIG-2014-087 │ 23
Appendixes




                 Appendix A
                 Scope and Methodology
                 We conducted this performance audit from December 2012 through April 2014
                 in accordance with generally accepted government auditing standards.  Those
                 standards require that we plan and perform the audit to obtain sufficient,
                 appropriate evidence to provide a reasonable basis for our findings and conclusions
                 based on our audit objectives.     We believe that the evidence obtained provides a
                 reasonable basis for our findings and conclusions based on our audit objectives.

                 We reviewed DoD and DFAS guidance related to the submission, compilation,
                 processing, and reporting of budgetary execution data to gain an understanding of
                 the process for compiling and reporting budgetary execution data. We interviewed
                 DoD, Army, and DFAS-IN personnel to obtain an understanding of the process
                 related to the creation of the Appropriation Status Report. We obtained standard
                 operating procedures and flowcharts from DFAS-IN personnel documenting the
                 process and associated controls for creating the Appropriation Status Report from
                 original budgetary execution feeder data.

                 To assess the reliability of the data reporting in the Army General Fund’s
                 December  2012 Appropriation Status Report, we obtained GFEBS trial balance
                 feeder file for December  2012, and using the DDRS-B crosswalk provided by
                 DFAS-IN, we recalculated the Appropriation Status Report values for December
                 2012 for our nonstatistical sample items. We compared our recalculated values with
                 the GFEBS values as reported in DDRS-B for the same 30 BLIs in the Appropriation
                 Status Report.      We requested DFAS-IN personnel assistance to reconcile the
                 differences between our recalculated sampled values and the GFEBS values used
                 to compile the Appropriation Status Report. Working with them, we reduced the
                 55 differences we initially calculated.       Additionally, we obtained information
                 through discussions with DFAS-IN and Army Budget Office personnel about the
                 automatic adjustment process they used to correct GFEBS information submitted by
                 Army field activities.

                 Then, we totaled the number of differences between our recalculated values and
                 the reported values in the Appropriation Status Reports.  Because each BLI had
                 6 possible values (6 columns for each BLI), and we sampled 30 BLIs, there were
                 180 potential values with which we could compare our recalculated values to the
                 reported values to determine whether they were equivalent.  For this analysis,




24 │ DODIG-2014-087
                                                                                      Appendixes



we set a materiality threshold of an absolute value of $100,000 for each potential
comparison.    For example, if a current year obligation for a BLI had a reported
value of $250,000, and our recalculated value was $100,000, the absolute value
difference would be $150,000 and counted as a material difference. We performed
these analyses to determine the adequacy of DFAS-IN crosswalks and documented
processes for computing GFEBS Appropriation Status Report information. Appendix D
identifies unresolved differences between reported and recalculated balances.

We also requested supporting documentation for a nonstatistical sample of
GFEBS transactions to assess the adequacy of the documentation and the Army’s
capability to provide this documentation in a timely manner.  Furthermore, we
reviewed the support for a nonstatistical sample of journal vouchers prepared by
DFAS-IN to determine whether DFAS-IN personnel prepared and approved journal
vouchers in accordance with DoD FMR, volume 6A, chapter 2.

To determine if journal vouchers were prepared in accordance with established
guidance, we selected and reviewed a nonstatistical sample of 15 journal vouchers,
valued at $85.3  billion, from the universe of 587 journal vouchers, valued at
$136.2 billion, prepared by DFAS-IN in support of the December 2012 Appropriation
Status Report.   We selected 13 journal vouchers in the high-dollar range (those
over $500 million) from DDRS-B and the 2 highest valued journal vouchers from
the feeder file adjustment log.  See Appendix  F for key information about the
14 journal vouchers (of the 15 reviewed) that were not properly supported.


Use of Computer-Processed Data
We used the December 2012 budget execution feeder files from GFEBS, Army
legacy systems, and the Corps of Engineers Financial Management System.  We
focused our audit on assessing the reliability of the GFEBS data reported in the
Appropriation Status Report. To assess the reliability of the GFEBS data, we:

        •	 reviewed existing information known about this GFEBS data;

        •	 recalculated sampled GFEBS values by verifying completeness and
           accuracy of processes used by DFAS-IN in preparing Appropriation Status
           Reports; and

        •	 requested supporting documents to trace feeder data records to source
           documents.




                                                                                 DODIG-2014-087 │ 25
Appendixes



                 The data reliability issues we identified are discussed in the findings. We believe
                 the computer‑processed data we used were sufficiently reliable to support the
                 findings and conclusions in this report.


                 Use of Technical Assistance
                 During the audit, we requested and received technical assistance from the
                 DoD OIG Quantitative Methods Division (QMD).  QMD personnel assisted us
                 with designing nonstatistical samples of GFEBS data.


                 Prior Coverage
                 During the last 5 years, GAO, DoD IG, and KPMG LLP issued 5 reports discussing Army
                 budgetary accounting reporting.  Unrestricted GAO reports can be accessed over the
                 Internet at http://www.gao.gov.      Unrestricted DoD  IG reports can be accessed at
                 http://www.dodig.mil/pubs/index.cfm. The KPMG LLP reports are not available over
                 the Internet.


                 GAO
                 Report No. GAO-13-123, “Ineffective Risk Management Could Impair Progress
                 toward Audit-Ready Financial Statements,” August 2, 2013

                 Report No. GAO-12-642T, “Challenges in Attaining Audit Readiness and Improving
                 Business and Systems,” April 18, 2012


                 DoD IG
                 Report No. DODIG-2012-096, “Defense Departmental Reporting System–Budgetary
                 Was Not Effectively Implemented for the Army General Fund,” May 31, 2012


                 KPMG LLP
                 “Independent Accountants’ Report,” April 9, 2013

                 “Independent Accountants’ Report,” November 22, 2011




26 │ DODIG-2014-087
                                                                                                                                   Appendixes




Appendix B
Appropriation Status Report Format
The Appropriation Status Report has 10 displayed columns, 9 of which contain
numeric data.          Each of the 10 columns is identified on the Appropriation Status
Report by a letter, beginning with Column A and ending with Column J. Column A,
“Fiscal Year Program Activity, and/or Project,” the first column on the Appropriation
Status Report, identifies the activity, project name, and BLI, but it contains no numeric
data.  Column H, “Gross Unpaid Obligations End of Period,” and Column I, “Total
Unobligated Balance,” do not contain original numeric values because they are
calculated by standard formulas from other Appropriation Status Report data
within the same program activity line. Column F, “Gross Unpaid Obligations Brought
Forward/Transferred,” shows balances brought forward from the prior year.  We
performed an analysis of the numerical values reported in 6 of the 10 columns
(B, C, D, E, G, and J) on the Appropriation Status Reports for December 2012 for two
major categories of Army General Fund appropriations (Operation and Maintenance,
and Procurement). The Table describes the information reported in those six columns.

Table. Appropriation Status Report Columns Reviewed
 Report
 Column                              Title*                                           Values Reported

               Appropriated in Conference Report/                    Congressional program
     B         Program Distribution of Total Amount                  authorization in the annual
               Available for Obligation From Inception               DoD Appropriations Act
               Approved Program/Program Distribution                 Congressionally approved program and
     C         of Total Amount Available For Obligation              reprogramming actions,
               in Current Fiscal Year                                fiscal-year-to-date
               Revised Program/Apportioned or                        Program as affected by reprogramming
     D         Otherwise Available for Obligation to the
               End of the Current Quarter                            permitted by DoD

                                                                     Obligations incurred during the current
               Obligation Transactions
     E                                                               fiscal year, plus any included adjustments
               in Current Fiscal Year                                of prior year obligations

               Gross Disbursements                                   Payments made during
     G         in Current Fiscal Year                                the current fiscal year
                                                                     Administrative reservations
      J        Commitments Outstanding                               of program funds
 *
   Columns B-D contained different titles in the Appropriation Status Reports for Operation and Maintenance, Army (OMA)
 and Procurement appropriations. Where two titles are displayed, separated by a “/”, the first title represents OMA and the
 second title represents procurement.




                                                                                                                              DODIG-2014-087 │ 27
Appendixes




                 Appendix C
                 Appropriation Status Report Compilation Process
                 Sources for Budget Execution Data
                 The Army and DFAS-IN used a number of accounting and reporting systems for
                 budgetary reporting.                    Army accountants generally recorded budgetary events
                 into original entry accounting systems using transaction documents, such as
                 Treasury           warrants,        OMB        apportionment             forms,       purchase         orders,       receiving
                 documents,              invoices,      disbursement           vouchers,         checks,       and      Electronic        Funds
                 Transfers.  GAO’s “Standards for Internal Control in the Federal Government”
                 (GAO/AIMD‑00‑21.3.1) states that a basic internal control is that all transactions
                 need to be clearly documented and the documentation should be readily available
                 for examination.                 Budget execution data for the Army used to compile the
                 Appropriation Status Report came from a mix of older systems and recently deployed
                 enterprise resource planning systems, including GFEBS.

                 GFEBS is the Army’s new web-enabled financial reporting, asset, and accounting
                 management system that standardizes, streamlines, and shares critical data across
                 the Active Army, Army National Guard, and Army Reserve. GFEBS is an enterprise
                 resource planning system that will replace numerous legacy systems, to include
                 the Standard Finance System.                        GFEBS maintained a user’s Common Access Card
                 information for all transactions executed within the system.
                                    12




                 GFEBS completed full deployment in July 2012.  The Army’s audit readiness
                 strategy is heavily reliant on GFEBS. Effective October 1, 2012, with some specific
                 exceptions, all new financial transactions were required to be entered into
                 GFEBS at activities at which GFEBS had been fielded. As of June 18, 2013, the last
                 scheduled date that a system was to be replaced by GFEBS was December 31, 2016.
                 GFEBS currently has more than 53,000 users at 227 locations worldwide.




                 	12	
                        A Common Access Card is an identification card that is also used for computer access by active‑duty military personnel,
                        selected Reserve, DoD civilian employees, and eligible contractor personnel. GFEBS records the Common Access Card
                        numbers of personnel who create transactions and the system maintains a database of users by Common Access
                        Card numbers.




28 │ DODIG-2014-087
                                                                                         Appendixes



Defense Departmental Reporting System–Budgetary
DFAS-IN provides finance and accounting support to the Military Departments and
Defense agencies.  DFAS-IN’s Accounting Operations Directorate, Departmental
Reporting, is responsible for compiling accurate and timely budget execution
reports in compliance with the DoD FMR.       DFAS-IN uses the web-based DDRS-B
to facilitate and standardize the DoD reporting process for budget execution data.
DDRS-B incorporates reporting requirements from OMB, the Department of the
Treasury, and OUSD(C).

Reporting entities, such as the Army, consolidate budgetary resource information
and budget execution data as reported in their respective feeder systems and these
data are submitted to DFAS-IN for processing by DDRS-B.       Before processing the
data in DDRS‑B, DFAS-IN personnel make adjustments to the data, to include the
use of journal vouchers.     DDRS‑B then creates various export files that are the
basis of the application’s budget execution reports, to include the Appropriation
Status Report. For December 2012, DFAS-IN personnel prepared the Appropriation
Status Report related to the 55 Army General Fund appropriations, containing
approximately 14,200 BLIs.

DDRS-B also creates an export file that is submitted to DDRS-Audited Financial
Statements after processing DFAS-initiated adjustments to the DDRS‑B data.
DDRS-Audited    Financial    Statements   produces   the   required   quarterly   and
annual financial statements, to include the SBR.     As of December 31, 2012, the
Army reported $145.8  billion in budgetary resources on its 1st quarter, FY 2013
General Fund SBR.

Army personnel in various roles located in Army field activities input financial
data, including budget execution information, into various financial systems.     The
primary financial system used by the Army is GFEBS, but numerous legacy systems
continue to be a source of budgetary execution data. This data flows on a monthly
basis into DDRS‑B.   DFAS-IN uses DDRS-B for processing Army financial data and
to produce monthly budgetary reports, including the Appropriation Status Report
and the Report on Budget Execution and Budgetary Resources (SF  133). DFAS-IN
adjusts the financial data, through automatic adjustments, journal vouchers,
and other adjustments.       Monthly budgetary execution reports display the total
financing provided to programs and the amounts still available for expenditure.




                                                                                    DODIG-2014-087 │ 29
Appendixes



                 The same data are used by DFAS-IN for analysis, summarization, and preparation
                 of the financial reports.   Then, DFAS-IN produces the SBR using DDRS‑Audited
                 Financial Statements. A process flowchart for compiling the Army General Fund’s
                 Appropriation Status Report and other budget execution reports is depicted in
                 the Figure.

                  Figure. Monthly Flow of Budgetary Data




30 │ DODIG-2014-087
                                                                                                Appendixes




Appendix D
Unresolved Differences Between Reported and
Recalculated Values
We reviewed 30 BLIs from the Appropriation Status Report for December 2012. Using
the GFEBS trial balance feeder for the same period, we recalculated the Appropriation
Status Report values in 6 columns of the Appropriation Status Report for those
30 BLIs, for a total of 180 values. We compared the recalculated values with those
reported by DFAS-IN personnel and summed the absolute values of each of the
differences by column for each BLI to determine the magnitude of the differences.
After several meetings with DFAS-IN personnel, differences continued to exist in the
reported data. The following Table identifies the values of the unresolved differences.

Table. Unresolved Differences in Report Values

                     Period(s)
                                                                     Absolute Value of
                    of Funding       Budget Line
  Appropriation                                      Column         Reported Differences
                    Availability    Item Number
                                                                       (in thousands)
                   (Fiscal Years)

     OMA               2013             493             C                  $279,679

                  2012 through
      APA                               014             B                    10,000
                     2014
                  2012 through
      APA                               014             C                    10,000
                     2014
                  2012 through
      APA                               014             D                    10,000
                     2014
                  2012 through
      MPA                               009             B                    28,548
                     2014
                  2012 through
      MPA                               009             C                    13,593
                     2014
                  2012 through
      MPA                               009             D                      1,361
                     2014
                  2012 through
      MPA                               009             E                    14,954
                     2014
                  2011 through
      MPA                               005             B                        304
                     2013
                  2011 through
      MPA                               005             C                        304
                     2013
                  2011 through
      MPA                               005             D                        304
                     2013
                  2012 through
    W&TVA                               001             B                    30,000
                     2014




                                                                                           DODIG-2014-087 │ 31
Appendixes



                                              Period(s)
                                                                                             Absolute Value of
                                             of Funding           Budget Line
                       Appropriation                                               Column   Reported Differences
                                             Availability        Item Number
                                                                                               (in thousands)
                                            (Fiscal Years)

                                           2012 through
                         W&TVA                                        001            C               26,712
                                              2014
                                           2012 through
                         W&TVA                                        001            D               23,453
                                              2014
                                           2012 through
                         W&TVA                                        001            E                 3,260
                                              2014
                                           2011 through
                         W&TVA                                        032            B               28,736
                                              2013
                                           2011 through
                         W&TVA                                        032            C                7,140
                                              2013
                                           2011 through
                         W&TVA                                        032            D               14,203
                                              2013
                                           2011 through
                         W&TVA                                        032            E               21,344
                                              2013
                                           2013 through
                           PAA                                   6780E25500          E               30,878
                                              2015
                                           2013 through
                           PAA                                   6780E25500          J                8,524
                                              2015
                                           2012 through
                           PAA                                        028            B               33,686
                                              2014
                                           2012 through
                           PAA                                        028            C                3,091
                                              2014
                                           2012 through
                           PAA                                        028            D               28,817
                                              2014
                                           2012 through
                           PAA                                        028            E               25,727
                                              2014
                                           2012 through
                           PAA                                        037            B                2,118
                                              2014
                                           2012 through
                           PAA                                        037            C                2,341
                                              2014
                                           2012 through
                           PAA                                        037            D                  583
                                              2014
                                           2012 through
                           PAA                                        037            E                1,310
                                              2014
                                           2012 through
                           PAA                                        037            J                1,016
                                              2014

                          Total                                                                    $661,987

                      Legend
                      OMA 	    Operation and Maintenance, Army
                      APA 	    Aircraft Procurement, Army
                      MPA 	    Missile Procurement, Army
                      W&TVA	   Procurement of Weapons and Tracked Vehicles, Army
                      PAA 	    Procurement of Ammunition, Army




32 │ DODIG-2014-087
                                                                                                 Appendixes




Appendix E
Requests for Supporting Documentation
Using the 30 BLIs as a basis, we determined the ability of the Army to support
34  GFEBS financial transactions.     The following Table provides information about
the 34  financial transactions, including the status of the Army’s ability to provide
supporting documentation.

Table. Status of Requests for Supporting Documentation

    Type of         Budget Line     Amount ($)                   Status
  Transaction          Item
 Disbursement1         493          $224,245     Point of contact could not be determined
 Disbursement          471           -61,902     Point of contact could not be determined
 Disbursement          009           518,000      No response to requests for document
 Disbursement          213            49,704      No response to requests for document
 Disbursement          331          1,010,608     No response to requests for document
 Disbursement          032            3,560       No response to requests for document
 Disbursement        415EP2500       200,000      No response to requests for document
 Disbursement          433           134,441      No response to requests for document
 Disbursement       99660000000      911,000     Point of contact could not be determined
 Disbursement          471            59,616     Point of contact could not be determined
    Funding2        1284GZ2300      34,000,000            Supported transaction
    Funding          415EP2500      1,365,000     No response to requests for document
    Funding         9675A00010      5,999,000     No response to requests for document
    Funding         8980D04003      19,954,000    No response to requests for document
    Funding         2706AA6605      53,469,000    No response to requests for document
    Funding            032          28,735,650    No response to requests for document
    Funding         6780E25500      53,905,000    No response to requests for document
   Obligation   3
                       009           -365,678            Unsupported transaction
   Obligation       2706AA6605        -1,160     Point of contact could not be determined
   Obligation          493          8,697,737             Supported transaction
   Obligation        415EP2500       143,416      No response to requests for document
   Obligation        415EP2500       143,416      No response to requests for document
   Obligation        415EP2500       200,000      No response to requests for document
   Obligation       2706AA6605    -49,833,614     No response to requests for document
   Obligation          331          1,450,102     No response to requests for document




                                                                                            DODIG-2014-087 │ 33
Appendixes



                            Type of              Budget Line             Amount ($)                                   Status
                          Transaction               Item
                           Obligation                  331                8,052,126              No response to requests for document
                           Obligation                  032                 777,000                         Supported transaction
                           Obligation             415EP2500                150,000                         Supported transaction
                           Obligation            1284GZ2300                423,365               No response to requests for document
                           Obligation            1284GZ2300               9,367,597              No response to requests for document
                           Obligation            1284GZ2300                647,426               No response to requests for document
                           Obligation                  114                 192,143                         Supported transaction
                           Obligation                  493                  80,000                 Document received did not support
                                                                                                             transaction
                           Obligation            2706AA6605                   -247                         Supported transaction
                      1
                          A disbursement is a payment to an individual or organization for goods furnished or services rendered.
                      2
                          Funding provided by Congress through the annual Defense Appropriations Act is needed to incur obligations and
                          make payments.
                      3
                          An obligation is a legally binding agreement or action that will result in disbursements, immediately or in the future.




34 │ DODIG-2014-087
                                                                                   Appendixes




Appendix F
Results of the Journal Voucher Review
                     Journal Voucher Did Not
  Journal Voucher                              Journal Voucher Specified as
                    Have Adequate Supporting
      Number                                      GFEBS Error Correction
                         Documentation

   20131219889                 X                            X
   20131257594                 X                            X
   20131301116                 X                            X
   20131300748                 X                            X
   20131196251                 X                            X
   20131196234                 X                            X
   20131196232                 X                            X
   20131196231                 X                            X
   20131196230                 X                            X
   20131196225                 X                            X
   20131196214                 X                            X
   20131196213                 X                            X
   20131196209                 X                            X
   20131196090                 X
   20131195874
       Total                  14                           13




                                                                              DODIG-2014-087 │ 35
Management Comments




                 Management Comments
                 Department of Army Comments
                 Department of the Army




                                Click to add JPEG file




36 │ DODIG-2014-087                              31
                                         Management Comments



Department of the Army (cont’d)




                Click to add JPEG file




                                  32


                                               DODIG-2014-087 │ 37
Management Comments

                  Defense Finance and Accounting Service Comments
                 Defense Finance and Accounting Service




                                   Click to add JPEG file




                                                    33




38 │ DODIG-2014-087
                                                  Management Comments



Defense Finance and Accounting Service (cont’d)




                Click to add JPEG file




                                 34




                                                        DODIG-2014-087 │ 39
Management Comments



                 Defense Finance and Accounting Service (cont’d)




                                  Click to add JPEG file




                                                   35




40 │ DODIG-2014-087
                                                                     Acronyms and Abbreviations




Acronyms and Abbreviations
      BLI   Budget Line Item
  DDRS-B    Defense Departmental Reporting System–Budgetary
  DFAS-IN   Defense Finance and Accounting Service–Indianapolis
 DoD FMR    DoD Financial Management Regulation
     FIAR   Financial Improvement and Audit Readiness
     FMR    Financial Management Regulation
     GAO    Government Accountability Office
   GFEBS    General Fund Enterprise Business System
    OMB     Office of Management and Budget
 OUSD(C)    Office of the Under Secretary of Defense (Comptroller)
     SBR    Statement of Budgetary Resources




                                                                                DODIG-2014-087 │ 41
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                            DoD Hotline
                           dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
